HHS/OIG-Audit--"Follow-up on Corrective Actions in Response to GAO's Report on the NIH Computer System, (A-15-95-40001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up on Corrective Actions in Response to the General Accounting
Office's Report on the National Institutes of Health Computer System,"
(A-15-95-40001)
July 23, 1997
Complete Text of Report is available in PDF format
(1.6 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our follow-up review to determine progress
by the National Institutes of Health (NIH) in implementing recommendations made
by the General Accounting Office (GAO) in its November 1991 report entitled,
"Major NIH Computer System--Poor Management Resulted in Unmet Scientists'
Needs and Wasted Millions" (GAO/IMTEC-92-5).
The GAO reported that NIH did not:
effectively manage its mainframe computer capacity;
acquire computers for administrative processing in a straightforward manner.
The GAO stated that NIH had improperly used the critical nature of scientists'
work to justify the large computers it wanted without anyone questioning its
decisions. The GAO found that NIH needed to eliminate the excess administrative
processing capacity it acquired after obtaining authority to purchase computers
on the basis that they were needed for scientific research;
successfully promote competition; and
adequately assess the computing needs of scientists. The GAO concluded that
NIH needed to require its senior information resources management (IRM) officials
to take the lead role in future major system acquisitions by developing a
strategic plan and otherwise ensuring that acquisitions support the mission
of NIH.
The NIH concurred with corrective actions GAO recommended and, in Fiscal Year
(FY) 1996, reported that it had completed the corrective actions.